HHS/OIG Audit:"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Colorado Department of Health Care Policy and Financing,"(A-06-01-00004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Colorado Department of Health Care Policy and
Financing," (A-06-01-00004)
November 30, 2001
Complete
Text of Report is available in PDF format (972 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price (AWP) minus a percentage discount, which
varies by State, as a basis for reimbursing pharmacies for drug prescriptions.  Therefore,
the objective of this review was to develop for the Colorado Medicaid program an
estimate of the discount below AWP at which pharmacies purchase brand name and
generic drugs.  In Colorado, our estimate of the overall discount below AWP
for the invoice prices reviewed was 19.64 percent for brand name drugs and 65.32
percent for generic drugs.  Our national estimates, included in reports previously
issued, were 21.84 percent and 65.93 percent, respectively.  We recommended
that the Colorado Department of Health Care Policy and Financing consider the results
of this review as a factor in any future changes to pharmacy reimbursement for
Medicaid drugs.